<html>
<title> - NOMINATION OF DENISE T. ROTH</title>
<body><pre>[Senate Hearing 114-405]
[From the U.S. Government Publishing Office]











                                                        S. Hrg. 114-405

                      NOMINATION OF DENISE T. ROTH

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             FIRST SESSION

                               __________

NOMINATION OF DENISE T. ROTH, TO BE ADMINISTRATOR, U.S GENERAL SERVICES 
                             ADMINISTRATION

                               __________

                             JULY 23, 2015

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 
 
        
        
        
                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-882 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001    
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                    Keith B. Ashdown, Staff Director
                  Christopher R. Hixon, Chief Counsel
Gabrielle D'Adamo Singer, Deputy Chief Counsel for Governmental Affairs
              Gabrielle A. Batkin, Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
        Deirdre G. Armstrong, Minority Professional Staff Member
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Carper...............................................     1
    Senator Lankford.............................................     3
    Senator Ernst................................................    14
    Senator McCaskill............................................    20
Prepared statement:
    Senator Carper...............................................    31

                               WITNESSES
                        Thursday, July 23, 2015

Denise T. Roth, to be Administrator, U.S. General Services 
  Administration
    Testimony....................................................     4
    Prepared statement...........................................    33
    Biographical and financial information.......................    37
    Letter from the Office of Government Ethics..................    53
    Responses to pre-hearing questions...........................    56
    Responses to post-hearing questions..........................    84
 
                      NOMINATION OF DENISE T. ROTH

                        THURSDAY, JULY 23, 2015

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m., in 
room 342, Dirksen Senate Office Building, Hon. Thomas R. Carper 
presiding.
    Present: Senators Lankford, Ernst, Carper, and McCaskill.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. The Committee will come to order.
    Senator Lankford and I are going to co-chair this hearing 
for our nominee today.
    Denise, we welcome you.
    I do not know if you have anyone in your family that is 
here with you. Do you have anyone in your family that is here 
with you?
    Ms. Roth. I do, Senator. My husband is here, Charles Roth.
    Senator Carper. She told me about you earlier in our 
interview. She said your middle name was Lucky. [Laughter.]
    Ms. Roth. He says the same.
    Senator Carper. And I would agree. People say that about my 
middle name, too.
    Today, our Committee convenes to consider the nomination of 
Denise Turner Roth to be Administrator of the General Services 
Administration (GSA).
    We welcome you, Ms. Roth, today, and your husband, before 
our Committee, and we thank you for your willingness to serve 
as our Administrator. We thank your family for their 
willingness to share you with the people of our country.
    The General Services Administration has a mission that is 
near and dear to my heart and, I think, the hearts of many of 
us on this Committee. That mission is to help other agencies do 
more for less. And by helping other agencies with contracting, 
information technology (IT) solutions, and property management, 
GSA is a catalyst for both reducing expenses and improving 
performance.
    And we take a governmentwide approach to management instead 
of letting agencies all operate in stovepipes, we really can 
save a lot of money. For example, when we leverage the buying 
power of the Federal Government through the Strategic Sourcing 
Initiative, we can save billions in what we spend on supplies 
and other items, from toilet paper to technology, I like to 
say.
    In fact, the Comptroller General of the General 
Accountability Office (GAO), Gene Dodaro, who has sat in that 
seat many times, reminded our Committee that for every 
additional percent of Federal contracting we can do through 
strategic sourcing we could save $4 billion.
    Another issue where GSA plays a vital role in saving 
taxpayer dollars is real property management. That is a subject 
that Senator Lankford's predecessor, Tom Coburn, and I worked 
on for many years with your predecessor, Denise.
    Last month, this Committee heard from the Commissioner of 
the Public Buildings Service at GSA, Norman Dong, and Mr. Dong 
testified on actions the GSA is taking to consolidate space, 
improve space utilization, and support the Office of Management 
and Budget (OMB) in the governmentwide effort to reduce the 
Federal footprint. I am encouraged by the work underway to 
address this longstanding issue. It has been a source of 
constant sorrow for me and, I know, for Dr. Coburn.
    The National Strategy for the Efficient Use of Real 
Property and the Reduce the Footprint policies provide a 
framework to enhance agency management of real property, reduce 
the footprint, and save taxpayer dollars. However, much more 
needs to be done to remove this issue from GAO's high-risk 
list, including work here in the Congress, on much of which we 
are responsible for.
    I look forward to hearing from Ms. Roth today for her 
thoughts on real property reform and look forward to working 
with her as we contemplate legislation addressing this later 
this year.
    I like to say, as they say at Home Depot, you can do it; we 
can help. And we want to make sure we are helping in this 
regard.
    Ms. Roth has served as Deputy Administrator of GSA since 
February 2014 and has served as Acting Administrator of GSA 
since March of this year, when her predecessor, Dan 
Tangherlini, left the agency--somebody for which I had great 
affection and admiration. Hated to see him go.
    He said you will not miss me for a day because the person 
that is coming along after me is better yet, sort of like John 
the Baptist like laying the groundwork for his successor, the 
main event.
    But we will not even have to wait for a year to hit the 
ground running because you have already been running and have 
been carrying the baton on the innovations at GSA that Dan and 
others had started.
    Ms. Roth has also had great management at the local level, 
having served in the Administration of Mayor Tony Williams here 
in the District of Columbia, a very good mayor, and then later 
as Assistant City Manager and then City Manager of Greensboro, 
North Carolina, which is located just south of the town I grew 
up in, Danville, Virginia.
    I also note from my colleagues that Ms. Roth has the strong 
support of her predecessor, Mr. Tangherlini. He is someone who 
is widely respected on both sides of the aisle here in this 
Committee and in the Congress.
    In getting to know Ms. Roth, I believe she will carry on 
with Dan's pragmatic, nonpartisan approach to find practical 
solutions to some of the very real problems that we continue to 
face.
    Ms. Roth, I look forward to hearing from you; we look 
forward to hearing from you, about your vision for GSA and a 
discussion of the property, contracting, and other management 
challenges across the government that GSA can help address.
    And, with that, I would like to yield to Senator Lankford 
for any comments that he would like to add.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Thank you.
    I would like to welcome Ms. Roth as well.
    We have had the opportunity to be able to sit and visit and 
be able to talk through things and the plans, and I look 
forward to continuing that conversation and look forward to 
hearing your testimony today.
    I welcome your husband here and all the other guests and 
the folks that are around you from GSA.
    So I am glad that you are here and look forward to the 
conversation.
    I yield back. Was that a long enough statement for you?
    Senator Carper. Usually, it takes that long for us to clear 
our throats in the Senate. [Laughter.]
    I am really impressed. Is it still Thursday? It is still 
Thursday, and we have both given opening statements; that is 
good.
    Our Committee rules require that all witnesses at our 
nominations hearings give their testimony under oath. So I am 
going to ask you, Ms. Roth, to stand, to raise your right hand, 
and to take this oath. Please raise your right hand.
    Do you swear the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth; so help you, God?
    Ms. Roth. I do.
    Senator Carper. Thank you.
    [Pause]
    Just a very brief further introduction, if I could, of our 
nominee: Denise Turner Roth is the Acting Administrator and 
Deputy Administrator of the General Services Administration. 
Prior to joining GSA, as you heard, she spent 5 years as the 
Assistant City Manager and then City Manager of Greensboro, 
North Carolina, overseeing the day-to-day operation of the city 
of over a quarter of a million people.
    Ms. Roth, we are happy to have you here today. We look 
forward to hearing your statement.
    And feel free to reintroduce Lucky. Feel free to do that or 
anyone else in the audience.
    Before you speak, let me just ask: Do we have anyone in the 
audience who serves at GSA, anybody who is part of the team at 
the General Services Administration? If so, just raise your 
hand.
    [Show of hands]
    OK. Thank you.
    All right. You are recognized. Please proceed.

   TESTIMONY OF DENISE T. ROTH,\1\ TO BE ADMINISTRATOR, U.S. 
                GENERAL SERVICES ADMINISTRATION

    Ms. Roth. Thank you, Senator.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Roth appears in the Appendix on 
page 33.
---------------------------------------------------------------------------
    Good morning, Senator Carper, Senator Lankford, and Members 
of the Committee who I am sure will come soon, as well. I am 
honored to be here today.
    Senator Carper. Actually, sometimes it is a good sign on 
the attendance.
    Ms. Roth. OK.
    Senator Carper. When the room is full, you might want to be 
worried.
    Ms. Roth. I wanted to acknowledge them before they came.
    Senator Carper. You can feel lucky, too, so far. 
[Laughter.]
    Ms. Roth. Last year, I joined the General Services 
Administration as Deputy Administrator. The organization was in 
an ongoing period of significant and much-needed change. In 
response to serious challenges at the agency, a series of 
reforms had been initiated to improve oversight, strengthen 
controls, reduce costs, and refocus the agency on its core 
mission. As Deputy Administrator, I was responsible for 
executing many of these reforms.
    Since March of this year, I have served as Acting 
Administrator, and I have worked to seize the tremendous 
opportunities we have as an organization to introduce new 
technologies into the government, change the way we utilize 
Federal workspace, and modernize acquisitions.
    If confirmed as Administrator of GSA, I will continue to 
oversee the implementation of these reforms; I will work to 
ensure GSA is a proactive Federal partner, bringing cost 
savings solutions directly to agencies rather than waiting for 
them to call; and I will forge a path where GSA can better 
partner with local communities to support economic development.
    I have been honored to serve at GSA for the last 17 months, 
and with your approval, I hope to have the honor of continuing 
to serve.
    I would welcome the opportunity to answer any of your 
questions today.
    Thank you.
    Senator Carper. Short but sweet. Thank you for that 
statement.
    Before I yield to Senator Lankford for questions, I need to 
ask three questions we ask of all nominees, that are just 
simple questions. I think you may have heard these before but 
if you will just please answer briefly after each question.
    Is there anything you are aware of in your background that 
might present a conflict of interest with the duties of the 
office to which you have been nominated?
    Ms. Roth. No.
    Senator Carper. No. 2, do you know of anything, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Ms. Roth. No.
    Senator Carper. All right, one last question. Do you agree, 
without reservation, to comply with any request or summons to 
appear and testify before any duly constituted committee of 
Congress if you are confirmed?
    Ms. Roth. I do.
    Senator Carper. Very well.
    Senator Lankford is going to go ahead and start us off with 
our first round of questions, and I will jump in right after he 
is finished.
    James, go ahead.
    Senator Lankford. Thank you, Senator.
    Let me ask about measuring success. That is one of the 
challenges for anyone who steps in the role. You have been 
around it, and you have been around the office. You know the 
operation well.
    When you step into a leadership role, a year from now there 
will be questions to say, have you been successful? Five years 
from now, there will be questions to say, how were you 
successful?
    What metrics will you use to say this is how we know if GSA 
is succeeding? And then I would like to know kind of the steps 
that you would like to take to get to that spot.
    But, first, let me just talk about the metrics. What are 
the things that you look at and say, if we can get these things 
done, we are succeeding?
    Ms. Roth. Thank you.
    There are a couple of areas. Obviously, GSA, in our 
mission, has a strong focus on real property management, 
acquisitions, and technology services. Within each of those 
realms, there are areas that we need to be very focused on in 
terms of ensuring that we are achieving success.
    So from real property, from my perspective and the team's 
perspective, in part, that is our commitments within the 
operational agreements we make as an organization. It is a 
commitment in terms of reducing the footprint overall and 
supporting agency activity.
    Senator Lankford. OK. Let me stop you for just a second? 
But I want you to keep going on it.
    I would tell you that Senator Carper has worked on this for 
a long time, and Senator Coburn, as he mentioned before, had 
worked on it for a long time. Multiple GSA Directors have 
worked on the real property issue.
    What I would like to know is the metrics of: How do you 
know you are succeeding when others have struggled with this 
same issue?
    Are you looking at 5 percent reduction? Is it the cost per 
square foot goes down? Is it the number of square feet goes 
down?
    Kind of, what is the target for you to know that we are not 
just working on it, but we are actually making progress on 
this? So what do you look at as the main metric there to 
evaluate that?
    Ms. Roth. There are a few targets that are built in there. 
One of the ones I pointed to was the operational agreements. 
This is probably the laser-focus area in which we can see if 
the agencies that have set out a reduction target overall, from 
their reduction plans are actually achieving that with each 
activity that they are taking place across the portfolio, 
across the country.
    So I would say, if I had to pick one, that one is giving us 
the best chance at really identifying are we actually applying 
the policy itself to the actual activity, but there are other 
places that play into that.
    Some of the areas that we will be talking about, I am sure, 
is around disposal as well as the activities related to the 
cost itself in the market. How much are we using our existing 
properties versus the leasing activity that is occurring?
    But if I were to pick one in that area, it would be the 
operational agreements because that gives us the best 
visibility.
    Senator Lankford. OK. Let's talk about leasing versus 
buying. This has been an ongoing conversation as well.
    There is a piece of property we are going to use for 20 
years, 10 years, 15, years. It may be more efficient to buy 
that than it is to lease it, but most budgets are not built-in 
for buy; they are built in for a lease as far as the year-to-
year payments on that.
    How do we struggle with that, and what can you do to help 
us as a government deal with that issue?
    Ms. Roth. I think in the overall--and what I would add to 
that is our existing property as well. And to the extent that 
we are actually capitalizing on the ultimate utilization rates 
of those properties is a key part to that.
    When we find ourselves in a place that a lease is going to 
take us out to the same level of buying, it is not the right 
place to be.
    And I think that we should continue to talk about what are 
the options and alternatives that we can use as a Federal 
Government. Right now, our primary areas of focus are either 
buying or leasing, and buying outright, and that does create a 
hardship. So to the extent that we can capitalize on what we 
have existing in those markets, to offset that overall cost, is 
helpful as well.
    Senator Lankford. OK. That will be something that we will 
look for in the days ahead--a legislation proposal or a set of 
ideas of how do we get to there.
    Obviously, with military construction, we have a base 
military budget. Then we have a military construction budget 
that is separate, knowing that these items, military bases, are 
not something we necessarily want to lease all the time. We 
want to be able to own it, be able to operate it.
    But that is different, for instance, than if you just 
transition over to the Federal Aviation Administration (FAA). 
That control tower that we assume we are going to use for the 
next 30 years is often leased property.
    Ms. Roth. Yes.
    Senator Lankford. We are going to use that year after year. 
We are probably going to occupy that, and no one else is going 
to use that control tower but us.
    Ms. Roth. Right.
    Senator Lankford. So should we purchase that, or should we 
lease that?
    Those are questions that we are going to have to work 
together on, and we are going to need some recommendations, and 
those legislative proposals to come back would be very 
important to us.
    Ms. Roth. I look forward to working with the Committee on 
this topic. I think it is very important and actually could 
give us other tools in the tool chest, as it were.
    Senator Lankford. OK. That would be great.
    Let me talk about a unique perspective here for you and 
your background. You really do approach this with a really 
interesting background, coming from a city manager's 
perspective in the past. But as you know well as a city 
manager, everyone wants to have Federal property in their city 
because they are good neighbors.
    As a Federal Government, we, on the whole, not always, but 
we, on the whole, take care of our properties, watch out for 
them, have very strict rules on how we are going to use it.
    And cities, very often, do not want to see Federal 
properties go away because when that moves into private hands 
or when it moves into not being used then the building gets 
rundown and becomes a problem.
    So, from a city manager perspective, you were fighting to 
keep Federal properties there. Now from GSA's perspective and 
the leadership of that, you are now working to tell city 
managers, no, we are leaving, or we are taking these five 
buildings and we are condensing into one, and such.
    How are you going to handle that, just in the shift of the 
two perspectives for you?
    Ms. Roth. I do not think they have to necessarily be in 
conflict.
    From that city manager perspective, part of the other 
information that would be helpful is that the vacancy will be 
happening because it can create opportunities. There are many 
places that the Federal Government has actually been able to 
acquire property that could be very beneficial assets for a 
local community. And to the extent that we can help them 
understand what those tools are, understand what their long-
term economic strategy and goals are, and work in concert with 
them, it is beneficial.
    We generally have a sense long-term where we are going to 
go. Right now, we are working on those 5-year efficiency plans. 
That is going to give us a sense of where those vacancies could 
occur.
    Knowing that early on, as a city manager, would have helped 
me be in a much more proactive position.
    Senator Lankford. So just earlier notification but still an 
urgency to be able to say we have to resolve this real property 
issue?
    Ms. Roth. As well as helping the city understand what rules 
and regulations from a GSA perspective they could take 
advantage of, such as the disposal process and the role that 
they can play there. There are a number of areas that really 
favor local communities that they could take advantage of.
    Senator Lankford. OK. So any leader has a responsibility 
for morale of the people that are around. I think you have 
heard about a Las Vegas conference that was handled with GSA 
several years ago, which was a real shot at the morale of some 
really great folks that are at GSA. The challenge you will have 
in leadership is stepping in and being able to lead when there 
is still the spotlight on the organization, saying, how are you 
handling morale?
    What is a way that you are going to incentivize positive 
morale and a sense of engagement among your staff?
    Ms. Roth. I have had the chance to travel around and see 
most of our regions except for one, and what I find is that 
people are very committed they have going here at GSA. To the 
extent that we can actually recognize that work, and recognize 
it as it is happening and the benefit it has to the overall 
mission and goal of GSA, I think it is the right space to be 
in.
    None of us want to be back at the places we were in 2012, 
and we are really pulling toward what is it that we can do to 
support the strength of GSA going forward.
    And I think a lot of it is really playing the role that we 
are meant to play with supporting other Federal agencies. To 
the extent that we are playing, we are at the table, we are 
seen as a resource, and we are actually moving our gears and 
really challenging both our perspective, as well as how we work 
within our mission, is what is making us stronger. And so I 
think that is where we need to focus and that really gets our 
group rallied.
    Senator Lankford. That is great. Yes, nothing breeds morale 
better, and a strong morale, than success.
    Ms. Roth. Yes.
    Senator Lankford. When people feel like they are 
accomplishing something, they are getting something done, it 
just continues to feed. And so anything that you can do to help 
the success of the agency as a whole, and help the individuals 
within the agency feel like they are not trapped in the 
bureaucracy of trying to move papers around, but they are 
successful and they are actually moving some things, breeds a 
tremendous amount of encouragement across the organization. So 
I look forward to your renewed, fresh leadership in that area.
    It has been a great organization, and I look forward to 
seeing it continue to grow. So keep pushing your folks and 
finding the ways to have efficiency.
    Ms. Roth. Great. Thank you, Senator.
    Senator Lankford. I yield back. Thank you.
    Senator Carper. Thank you, Senator Lankford.
    The Senator from Oklahoma has heard me tell this story a 
time or two before, but I am going to repeat it. It just 
follows up on what he just said.
    I usually ride back and forth on the train to Washington 
every day because I live in Delaware, and a year or two ago, I 
was driving from the Young Mens Christian Association (YMCA) in 
Wilmington to the train station to catch the train.
    I listen to National Public Radio (NPR) news at the top of 
the hour, at 7. And this one day they offered a news story 
about an international survey in which they had surveyed 
literally thousands of people across the world, and they asked 
them, what is it that you like most about your job? That was 
the question.
    What do you like most about your job? And lot of people 
said--not half, but a lot of people said, I like getting paid; 
I like a paycheck.
    Some people said, I like having benefits, like health care, 
a pension, or sick leave.
    Some people said they like the folks they work with or the 
environment in which they work.
    But to his point, the answer that most people gave was they 
felt the thing they like most about their work was that what 
they were doing was important and that they were making 
progress.
    That is what most people felt. The work they were doing was 
important, and they are making progress.
    The work that you do at GSA is incredibly important, and I 
think on a number of fronts we are making progress. We are 
talking about one of them here today. We are making some; we 
need to make more.
    When Dr. Coburn and I--I came here a couple years before he 
did, but we had really the privilege of leading a Subcommittee 
of this Committee, called Federal Financial Management (FFM). 
And we realized early on we were just one little Subcommittee 
and we could not have much effect on making better use of 
taxpayers' dollars if it was just our Subcommittee that was 
working on it.
    So we learned how to partner with GAO. And then we learned 
how to partner with OMB. We learned how to partner with the 
Inspectors General (IGs) across the government. We learned how 
to partner with nonprofit groups that were concerned about 
waste in government. And finally, I learned--he probably 
figured this out sooner than I did--we learned how to partner 
with GSA.
    And then we got the opportunity to lead this full 
Committee, and it has really put our motivation and our 
aspirations for how to get better results for less money on 
steroids.
    But you play a huge role in this, an outsized role that I 
did not really fully grasp until recent years.
    I love what Senator Lankford is talking about with respect 
to metrics, and I would just urge you to take what he said, 
take it to heart, and be thinking about how do we measure 
success.
    How do we measure success, if we are not keeping score?
    What did Vince Lombardi used to say? If we are not keeping 
score, we are just practicing.
    Ms. Roth. Yes.
    Senator Carper. So it is incredibly important that we keep 
score and keep everybody honest, including ourselves and the 
folks we lead. That is great advice from us to you.
    I do not know how long Senator Lankford is going to be able 
to stay here. This would be helpful for me and maybe for him. I 
want to just move off-subject just for a minute or two.
    You played a leadership role early on, working for Mayor 
Williams here, for the District of Columbia.
    Ms. Roth. Yes.
    Senator Carper. Senator Lankford and I are big Golden Rule 
believers; treat other people the way we want to be treated. It 
is a guiding force in his life, and it certainly is for me.
    Legislation that I have introduced here would make it 
possible for people in the District of Columbia to actually be 
represented with voting members in the Senate and the House. I 
offered that legislation. We have a number of co-sponsors. And 
I do not know that it is going to become law anytime soon.
    I am troubled by the fact that the folks here pay taxes, 
they serve in the military, and they have many responsibilities 
of citizenship, but they do not get a vote in the House or 
Senate. That just does not seem right to me.
    And there are different ways to fix it. So earlier I had 
supported an idea of letting the folks in the District vote for 
either a U.S. Senator in Maryland or a U.S. Senator in Virginia 
and have their own delegate, not just a delegate but a U.S. 
Representative with a vote in the House. I thought that might 
be a good compromise. It did not happen.
    So whether or not we make progress on the legislation I 
have introduced this year, or reintroduced this year, talk to 
us just for a minute, putting on your old hat from you work in 
the District of Columbia. What are some things that the 
Congress can do, this Committee can do, in terms of the Golden 
Rule, treating the District of Columbia citizens in the way 
that we would want to be treated, particularly with respect to 
budget autonomy and the ability to do things?
    Right now, we are sitting on judicial nominees. We reported 
them out of committee. We have been sitting on them in the 
Senate for 2 years. Very well-qualified people. And it is just 
wrong.
    But just give us a minute, if you will, on some things that 
we might want to focus on, short of statehood or whatever, that 
just would be consistent with treating other people the way we 
want to be treated.
    Ms. Roth. Sure. Well, thank you for this unique 
opportunity. I am actually fifth generation Washingtonian as 
well.
    Senator Carper. Are you?
    Ms. Roth. So this is an interesting question.
    As I reflect, I would say that there are areas that 
oftentimes are policy areas that Congress is considering that 
could be beneficial and worthwhile in the District of Columbia.
    And I think that to the extent that you as a Committee 
continue to invite in the leadership of the District of 
Columbia, in terms of identifying those policy opportunities 
and really testing them and seeing their success or failure, 
and being open to that, I think is beneficial.
    We have here--and I have been impressed. I have been gone 
for over 10 years and to come back to see the commitment, the 
level of commitment of the residents, the quality of life 
improving, a community where there was no community previously, 
is tremendous. And it says to me that there are people here 
that are really and truly investing in their communities.
    So to the extent that, if there was a committee of D.C. 
leadership--and we have quite a few leaders, as you point out, 
that live in the City or have the City as their home base, that 
can evaluate policy opportunities that we may want to try on a 
small scale here before seeking them out throughout the 
country. I think it could be a great partnership for the 
District in terms of it being a true Nation's Capital, at the 
same time being a partner with Congress.
    Part of the relationship there has always been about trust 
as well as what is the role that the District plays in 
supporting the national leadership that comes here every year 
and makes our national policy. So, to the extent that that 
relationship can build, I think it would be a good thing and we 
could see some interesting policy come from that.
    Senator Carper. OK. I have some direct questions that 
pertain to your nomination for this position I want to ask, but 
let me just ask Senator Lankford if he has more questions.
    You are welcome to jump in.
    Senator Lankford. Actually, I would enjoy the conversation, 
but I am heading to an Appropriations hearing. There is a rumor 
out that the Senate is working on appropriations again, and so 
I am trying to get down there to that Committee.
    Senator Carper. OK.
    Senator Lankford. So I appreciate the conversation, though, 
as well.
    Senator Carper. Thank you for all your contributions, for 
your presence today.
    Senator Lankford. No, thank you.
    Senator Carper. Let me come back to the matter at hand, and 
that is your nomination to head up GSA. Let's talk a little bit 
about priorities.
    Sometimes I say to my staff and others, make me a guided 
missile, not an unguided missile.
    And we all need to be guided missiles. If we are just 
scattershot, we are not going to get, at the end of the day, 
nearly as much done as we should.
    Just share with us maybe three or four of your top 
priorities as Administrator.
    What would be maybe your approach to measuring--back to 
Senator Lankford's question, but what would be your approach to 
measuring how well GSA is doing in carrying out those 
priorities?
    Ms. Roth. Thank you.
    Well, as I talk about really the next steps and my vision 
for GSA, they do come into three areas--operational excellence, 
economic catalyst, and proactive partnership.
    Senator Carper. Say those again slowly.
    Ms. Roth. Operational excellence, economic catalyst, and 
proactive partnership. I think these themes build on the 
strengths of GSA and our current mission.
    And just to give you a moment on each, in terms of 
operational excellence, there have been quite a bit of reforms, 
as I referenced earlier, that have started, that have been put 
in place in relation to the agency, especially around 
consolidation of some of our operational activity. For us to 
continue to see that through and ensure that that effort is 
successful, as well as right-size for the operations of the 
organization, I think it is important.
    The previous Administrator, Administrator Tangherlini, set 
out on a path in 2012, and I think that it is the right 
direction, and so really trying to ensure that the nuts and 
bolts of that activity is followed through is a key priority 
for me.
    In terms of economic catalyst, GSA is represented across 
the Nation in many communities. And as we were talking about 
earlier, I think if we are very proactive in terms of what our 
planning is within those communities as it relates to buildings 
and properties that we are managing, and work alongside the 
communities that are there, we can see some great 
opportunities, such as projects such as Volpe in Massachusetts, 
the transportation project. And I think there is many other 
examples of that across our portfolio.
    I really would like to see us take a strategic approach to, 
as we are planning, either to dispose of property or to 
capitalize on existing property, to really engage local 
communities on what their plans are and how we can overlap and 
leverage from public and private activity.
    And from proactive partnership, we can see that with many 
of our agency partners all of us actually are struggling to 
ensure that we are keeping our administrative costs down and 
that we are really delivering the services for the American 
people and the taxpayer.
    To the extent that we look ahead, utilizing the data that 
we have about these agencies, and help them be more strategic 
in how they approach their current management, I think would 
help make them successful. So if that is from property 
acquisition technology, back office management, we frequently 
are engaging with all of the agencies around Federal 
Government. We have a good insight in terms of what they 
manage, how much they are managing, who they are managing for, 
and I think we can use that data to proactively go to them with 
the potential solutions.
    So those are the main areas I really focus on.
    And in terms of performance management--actually, we did 
not have this discussion earlier, but one of my main passions 
is really around performance management. And to the extent that 
we are clear on the front end, as we go into a fiscal year (FY) 
or a calendar year, as it be--what are our goals that we want 
to look back on 12 months from now and be successful? And how 
we are measuring that along the way is very important.
    So I continue to ensure to carve out the time both for 
setting those goals with the senior leadership team but also 
tracking that activity, month to month, quarter to quarter. And 
it is only then that we can really get to the right place of 
understanding are we being successful in the path that we set 
as well as evaluating did we set the right path because 
sometimes that is the case as well.
    And to the extent that being a Deputy I was able to be 
closer to that, as Administrator not as close, but ensuring I 
have a team that is supporting me, that has that same focus and 
vision and is helping to run that play is important to me as 
well.
    Senator Carper. All right. And I want to welcome Senator 
Ernst.
    Nice to see you this morning. You are always great and 
faithful in your attendance.
    I have learned. I had a number of jobs. We have all had a 
number of jobs in our lives.
    I started work when I was really a pretty young kid, but I 
had the chance to serve a lot of uses--a naval officer; I had a 
chance to be Treasurer of my State, Congressman, Governor, and 
now a Senator.
    But in those jobs--and, frankly, in jobs I had before that 
in high school and college--I learned a lot, things that inform 
me to this day. Working with my mom in my grandfather's mom-
and-pop supermarket in Beckley, West Virginia, when I was a kid 
growing up--just all kinds of lessons that were helpful, hugely 
helpful for me, from those sources.
    I want you to go back, not all the way back to your 
childhood and your earlier work, but I want you to talk about 
the work you did in the District of Columbia. I want you to 
think back on your years when you were the Assistant City 
Manager in Greensboro and then the City Manager in Greensboro 
and how you experienced a number of the management challenges 
that are not dissimilar from what you are going to be facing in 
this role.
    What were some of the lessons learned from those, whether 
it was your work in the District or whether it was your work in 
Greensboro, that you think will inform you in these new 
responsibilities on the outside chance you actually get 
confirmed for this job?
    Ms. Roth. Thank you.
    Well, I will say there have been a few management 
challenges and experiences, as well as successes, that I 
learned from over the years.
    In general, there is a couple of themes that I keep with 
me. One is to be clear as I come into a role in terms of what 
my expectations are and how I expect that we can get there, and 
then understand and share in the values with the leadership 
that are there in terms of their perspective of that as well.
    I have also learned to trust my instincts from the front 
end. So if there is a--especially where it comes to management 
challenges, if there is an area where something is not working, 
whether it is personnel or otherwise, recognize that early on 
and be willing to deal with it head-on has been an important 
strategy for me.
    Quite frankly, ultimately, when you let things linger, they 
do not get better is what I have learned.
    So that has been very important, as well as understanding 
and trusting the people that are around you. Ultimately, 
everyone has the right seat for themselves to be in and has 
strengths in one aspect or another. Understanding where those 
strengths are, ensuring that they are doing work that plays to 
that strength, and then trusting them to do the work, and 
holding them accountable to it is another important tenet that 
I keep as a manager as well.
    Senator Carper. Before I turn it over to Senator Ernst, a 
couple of months ago I was reading through my clips at the end 
of the day, and I came across an article about a survey taken 
of, in this case, senior-level Federal employees, senior 
supervisors. And several thousand of them were interviewed, and 
they were asked--kind of going back to what Senator Lankford 
was asking about--morale. They were asked, what can be done to 
improve your morale as senior leaders within the Civil Service?
    And some people said, they work really hard; they would 
like to not have to work quite as long, have more time with 
their families.
    Some people said, more pay would be good.
    But the majority of people said they would just like to be 
thanked.
    Imagine that. I would just like somebody to say, thank you.
    And what I do when I go through--the morale in the 
Department of Homeland Security (DHS) is not high. In some 
parts it is, but in a lot of parts it is not. They have tough 
jobs.
    But like when I go through airports, at Transportation 
Security Administration (TSA), what I have done is started--
when people are doing a clearly good job, dealing with a lot of 
challenges, I will just say: I am Tom Carper. I serve on the 
Senate Committee on Homeland Security. I just want to thank you 
for what you do.
    And I cannot tell you how many TSA people say--nobody has 
ever thanked me before.
    So I always urge leaders, obviously, to personalize it, but 
maybe the three most important words we can say is ``I love 
you,'' a lot. I say that a lot to people.
    But the other three words that are really important are 
``please'' and ``thank you.''
    And I would urge you to--you probably do that already, but 
I would urge you to keep that in mind and in your heart as you 
go forward.
    Ms. Roth. Thank you.
    Senator Carper. Senator Ernst.

               OPENING STATEMENT OF SENATOR ERNST

    Senator Ernst. Thank you, Senator Carper. I appreciate it.
    He is always very gracious with his compliments as well.
    Ms. Roth, thank you for being here today.
    I really do appreciate your work at the local level as 
well. I think starting out in local government is always a 
great advantage as you move on to higher levels of 
responsibility. So, thank you for that. I think that speaks 
very well for you.
    Thank you for being here.
    You have talked a lot with a number of different members on 
some different issues, but I know you have stated in your 
written testimony also that you really do want to work very 
closely with the Inspector General.
    Senator Carper. Senator, can I interrupt?
    Senator Ernst. Yes.
    Senator Carper. We have some Future Farmers of America 
(FFA) back here that traveled down from Delaware. I just need 
to pop back and welcome them, and Senator, I will be right 
back.
    Senator Ernst. You pop right out and visit with those 
Future Farmer of America.
    Senator Carper. Thank you.
    Senator Ernst. I know how important agriculture is.
    Senator Carper. Yes, you do. [Laughter.]
    Senator Ernst [presiding]. Take your time, Senator Carper.
    I apologize for that, Ms. Roth.
    Ms. Roth. No, that is good.
    Senator Ernst. FFA is very important.
    So I just would like, in your words, how would you work 
with the Inspector General to ensure that some of the mistakes 
that have been made in the past with impermissible spending--of 
course, we have all seen, all the media from years past. But 
what will you do to increase that transparency, work with the 
Inspector General, just to ensure that these types of mistakes 
do not happen again?
    Ms. Roth. Thank you.
    I think our partnership and joint relationship with the 
Inspector General has been a central tool for our organization. 
And the Acting Inspector General and I meet regularly, 
currently, at least monthly, if not more frequently, and are in 
frequent communication.
    Something that we want to ensure for the organization is 
that everyone understands that it is their responsibility and 
duty to acknowledge and recognize if something is not working 
well in the organization that they need to speak up. We want 
that relationship to be transparent. We want the employees to 
not feel any barriers when it comes to going to the IG or 
working with the IG, as well as responding to their 
investigations and inquiries or general requests for 
information.
    So to the extent that I can work with their team in the 
IG's office, with both being in front of our senior leadership 
but as well as our two-downs, as I call them, but our sort of 
middle-level manager, and creating those opportunities is what 
we seek and are actively doing that in partnership. I see that 
as a central tool for us to see, quite frankly, the things we 
cannot see at the top level often.
    Senator Ernst. That is very good. I appreciate that.
    And you seem to be very engaged, not only with the 
leadership but also with those that work in the organization, 
and I appreciate that very much.
    I will go back to what Senator Carper was saying, as making 
sure that you express your gratitude to those that are doing a 
great job within the organization. So I believe that is 
extremely important. So, thank you for that.
    Thank you for your frequent communications with those that 
you work with. That is one of the greatest problems, I think, 
we face in the Federal Government--that we are not 
communicating. And that is the bottom-line key to success. So, 
thank you for doing that.
    I will move to a different topic, and it is about the 
surplus firearm donation program, and this is one that is 
little-known or little-talked-about, I think, but is very 
important.
    On June 12 of this year, the GSA Office of the IG released 
a report investigating GSA's surplus firearm donation program, 
and in this particular report the IG found that the program's 
data management controls were inadequate. Additionally, the 
inventory records were not complete or accurate, and that 
increased the risk that donated firearms are unmonitored and 
vulnerable to theft, loss, mismanagement, or unauthorized use. 
So the IG made several recommendations to improve that process.
    If you can, can you please provide information on the steps 
that have been taken by GSA to increase the safety and 
recording processes of the program, if you happen to know 
those, if you can detail those for us?
    Ms. Roth. I can give you a few in general.
    One is really we have strengthened our data management 
activity within GSA, and in the office in particular, our 
Office of Governmentwide Policy, we have a data team there. And 
our ability to understand the tools that are available for 
tracking similar types of activities and deploy them is very 
strong at this stage, and so I think we have a good team there 
that is going to help that office improve their tracking of 
that type of property.
    I think it is an essential thing that we understand where 
it goes because we do remain and continue to have 
responsibility for that property even though we allow for the 
use of it.
    Senator Ernst. And has that been computerized? I think that 
was one of the original complaints, too--that many of the 
inventory records were done by paper.
    Ms. Roth. They are working on that currently.
    Senator Ernst. OK.
    Ms. Roth. They have had experience with this. So I feel 
very confident that they will be able to put a good system in 
place as well as working with the State agencies that are the 
main contacts for this office in particular, for that type of 
disposal, and ensuring that we have a tracking through that 
office as well, as they are further down the road, providing 
that equipment to local law enforcement entities.
    Senator Ernst. OK. Very good.
    Ms. Roth. So it is both practices.
    Senator Ernest. Yes, this is an important program. I think 
we need to make sure that it is being managed correctly.
    Ms. Roth. Yes.
    Senator Ernst. It sounds like the steps are being 
implemented.
    I would love to have future updates on that particular 
program if you would be willing to provide those to the 
Committee.
    Ms. Roth. Absolutely. We will definitely give an update, at 
least in the next 90 days, in terms of where we are with the 
program and where we are expecting it to go.
    Senator Ernst. Fantastic. Thank you so much.
    And, Ms. Roth, then if confirmed as Administrator, what do 
you see as the greatest challenges right now that are facing 
GSA, and how do you see those challenges in your role moving 
forward?
    Ms. Roth. There is a couple of areas that we are very 
focused on, and some of them we have talked about today, and I 
am sure we will continue to talk about them.
    In terms of our property disposal activity as well as 
property management, I think that there are very good 
activities that are in place now with us talking with the 
Committee as well as with OMB, in looking both from a policy 
perspective but as well as how we are managing to reduce the 
footprint perspective. There are some very strong ideas and 
efforts in place, and I think that is giving us stronger data 
to be able to manage, too.
    We are currently going through, in terms of our 
acquisitions area, what we call Multiple Award Schedules (MAS) 
transformation, and I think that that is going to help us in 
terms of supporting small businesses as well as greater 
visibility and understanding of the buying activity that is 
happening through our schedules.
    Senator Ernst. OK.
    Ms. Roth. And, hopefully, we are improving that for both 
our customers as well as the private sector.
    And then something that we have talked about, obviously, 
this morning has been employee engagement. In this respect, we 
have been very focused on what we call our Employee Viewpoint 
Survey.
    And this year we have actually taken some very strong steps 
from a senior leadership perspective to engage and be more 
proactive over how we are engaging with employees, and right 
now we are going through a series of sharing those strategies 
with our--among the senior leadership team in evaluating how 
successful they were, and we did quarterly evaluations along 
the way.
    So we feel that that is the right direction, but we have 
more work to do in that respect.
    Senator Ernst. OK. I think that is fantastic.
    I am just going to quickly followup and thank you for your 
time.
    Senator Carper [presiding]. You do not have to quickly. You 
can take your time.
    Senator Ernst. I have another hearing ongoing right now.
    So, Ms. Roth, thank you very much for your testimony today. 
I am excited to learn as you progress through the confirmation 
hearing. And, again, working with the folks in GSA, I am 
excited to hear how that goes.
    You mentioned a word just a minute ago--``customer.'' I 
love that, that you acknowledge that there are customers out 
there.
    And one thing I think is extremely important is that even 
though it may be other Federal agencies, or whatever those 
people might be, they are our customers and we need to make 
sure that we are working well with them.
    So, thanks for your time today, your testimony. I look 
forward to moving on your confirmation, Ms. Roth.
    Ms. Roth. Thank you, Senator. Thank you.
    Senator Carper. Senator, thank you so much. Thanks so much 
for just being such an active participant in this Committee.
    Senator Ernst. Lots of flattery. [Laughter.]
    Senator Carper. Actually, it is true.
    When I came here to the Senate about 15 years, 14 years 
ago, I had some idea of how it operated and what you needed to 
do to be successful here, how the place ran, and the rules, and 
so forth. One of the things I anticipated, or knew before, was 
this place runs in part on relationships.
    And one of the things that grows out of relationships is 
trust. Around here, if you trust somebody, you can get a lot 
done. If you do not have much trust, it is hard to get anything 
done.
    Another thing that is important is integrity. I do not know 
who it was; maybe it was Alan Simpson, the Senator from 
Wyoming, who used to say, integrity, if you have it, nothing 
else matters.
    So those are the things that help guide me.
    I just remember every day how much more we could get done 
here if we had trust and to build trust, the kind of trust that 
I think I enjoyed with Senator Coburn, who was here for many 
years. And his successor, Senator Lankford, is going to be a 
great addition to our Committee. I think Senator Ernst is going 
to be a real star here, too.
    But trust in relationships is so important.
    I had breakfast this morning with one of our new Senators 
and just had a chance just to get to know him better.
    But what are some things that you learned in the short time 
that you have been at GSA? Maybe revelations. Maybe some things 
that just you kind of anticipated before but you were not 
really sure of. Just give us some early lessons that you have 
gleaned.
    Ms. Roth. One thing that has been of interest, and I have 
shared this with others, is how much time our employees and 
management team spend thinking about other agencies. And I 
think they would be surprised to know it, in fact, but a lot of 
our work is built on how well we are doing at supporting the 
activities of other agencies.
    And having that perspective has really been eye-opening for 
me. I knew that GSA had a long stretch, or reach, in terms of 
its mission and goal, but to really get inside of the 
organization and see how much time and how much knowledge our 
agency has about the ongoings around the Federal Government in 
general has been very eye-opening overall.
    I was fortunate, and I really benefitted from starting as 
Deputy Administrator and having a chance to work with the 
previous Administrator because it did give me a strong platform 
of understanding of both where the agency had been in terms of 
some of the challenges I saw coming in but, also, the 
opportunities.
    And the areas that we have really focused on, such as with 
acquisitions and being creative about how we are creating 
acquisition tools for other agencies, is something that I am 
not sure could be replicated anywhere else. So that is another 
example, as well.
    I have just been, I guess, overall just impressed with the 
level of reach that we have and the level of proactive efforts 
that are in place there.
    Senator Carper. A friend of mine told me about a 
conversation he heard of, and I guess it was at the National 
Aeronautics and Space Administration (NASA), one of the NASA 
installations down at Cape Canaveral a couple years ago.
    And someone that he knew had visited NASA and was there in 
the evening. And it is a sprawling operation--a lot of people 
who work there during the day, not so much at night.
    And he was walking through one of the spaces and came 
across a custodian, and he said to the custodian, hello. And he 
said, what do you do here?
    And the custodian said, I am helping to put a man on the 
moon.
    And that speaks to me of a real sense of team and purpose, 
that the custodian felt that he was part of the team to put a 
man, in that case, on the moon.
    Talk to us about a sense of team, creating a sense of team 
and a sense of purpose at GSA. How do you build on the work 
that Dan Tangherlini began with the reorganization effort that 
he launched?
    And do that in the context of building a sense of team and 
purpose. Will you do that?
    Ms. Roth. Sure. And we have--it actually is almost like a 
new team in some ways. We have had some management changes 
overall, and I think you would find among our team that we all 
have the same vision in terms of how do we both become--
continue to become more efficient for our support around 
government and overall, and how do we support across each 
other.
    So, if you came to our space, you would see that we have an 
open workspace. And from my vantage point, where I actually 
sit, I can make eye contact with the Public Building Service 
Commissioner, and I can make eye contact with the Acquisitions 
Commissioner. And it has allowed for us to go down this path 
and journey together, as it were.
    So, as I have a concept in terms of maybe a direction that 
we can take with buildings, or some questions I have about how 
we are moving forward with certain policies and efforts, I can 
walk across the room because I can see that they are there, and 
we can go into a huddle room and talk and collaborate and share 
very easily in that respect.
    I think that has been one of the strongest aspects of our 
team overall because we all came in around the same time, and 
so we have been building together.
    So in terms of building a sense of team, we have also spent 
quite a bit of time together as well. So we have three-a-week 
senior team meetings as well as a larger weekly senior team 
meeting, and we are sharing our goals in general.
    There has probably been a time where GSA could be seen as 
more isolated and siloed in its management. Now that management 
activity is very much collaborative. And it has produced 
efforts such as what we call Total Workplace, in which we are 
able to bring to others that are other agencies the resources 
that we have that cut across the Buildings Commission as well 
as the Acquisitions Commission.
    So our team has been able to strengthen in terms of how we 
collaborate, and that collaboration leads to real policy that 
we can apply, as well.
    Senator Carper. Before I turn to Senator McCaskill, let me 
just raise an issue you have already discussed with Senator 
Lankford during the time he was here, and that is the National 
Strategy for Property.
    And I have been pleased with how both the Bush and the 
Obama Administrations have taken an evermore-active role in 
property management. We talked about that some already.
    And you have spoken to this, but I want to revisit it 
again. How can we ensure that the good work in property reform, 
spearheaded both by the last administration and by this 
administration, continues on into the next administration, the 
next year and a half, and beyond?
    I feel one of our jobs here is oversight. And for years we 
get--as Senator McCaskill knows, every 2 years we get, at the 
beginning of a new Congress, GAO's high-risk list.
    And people say, what is that?
    And I say, it is the high-risk areas where we are going to 
waste money if we are not careful at where we are wasting 
money.
    For years, our real property management has been on their 
high-risk list. And one of my goals while I am here in the U.S. 
Senate is to get it off. And it is not something I can do or 
Dr. Coburn can do or Senator McCaskill or others can do by 
ourselves. So it is a real team effort.
    And I really hope to see from you a kind of--``fervor'' is 
probably the wrong word, but I am going to use it.
    Passion. Passion for us to continue the work that has begun 
and to take it to the next level. There is such a great 
opportunity to save money here.
    The other one is strategic sourcing. There are huge 
opportunities there.
    But just talk to us about your passion for continuing to 
build on the work that has been done on saving money by better 
management in the way we use and acquire our space.
    Ms. Roth. Thank you.
    One of the key aspects there is data integrity as well as 
data transparency. And to the extent that we continue to build 
on our real property database, working with other agencies in 
terms of how we are defining the assets themselves and the 
attributes of the assets, I think it is key for us to 
understand what is really the volume and world that we are 
working with and managing, as well as the process itself.
    And I know that we are talking with the Committee regularly 
about what are some options, potentially, for improving and 
streamlining on the process of property disposal, as well as 
how do we work with GSA, work with other agencies on their 
disposal planning and activity.
    The national real strategy planning effort is going to give 
us strong insight, and we are working very closely with OMB on 
this effort. But from this effort, we are getting from agencies 
their plan for both their current assets as well as the 
disposal of any assets that come out of that, as well as real 
Reduce the Footprint targets.
    And, with that, we can have stronger data in terms of 
applying and overlapping that information with our portfolio 
planning activity overall.
    So I think that we are in a very rich place in terms of 
taking advantage of the tools that we have, of the information 
that we know, and really moving in a strong way going forward.
    I think this is a huge responsibility for all of us at this 
stage and one that we want to spend as much time as we can both 
defining success and getting there, as well.
    Senator Carper. Thanks.
    We have been joined by Senator McCaskill, a person who is 
as passionate about these issues as anybody I know and who is a 
great member of this team, and we are delighted to yield to her 
at this time.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. Welcome.
    Ms. Roth. Thank you, Senator.
    Senator McCaskill. And congratulations on your appointment.
    I have worked extensively, and sometimes combatively, with 
your predecessors, not Mr. Tangherlini but prior to that. You 
may be aware of the history, way before the conferences in Las 
Vegas, we had done hearings about really bad bonus situations, 
really bad off-the-cuff hiring of PR experts when there was a 
bump, and immediately, the default position was let's hire 
somebody for a ridiculous amount of money to tell us what to 
say in Kansas City.
    And I do not do this other than the fact that I think GSA 
is one of the agencies that gets less oversight than other 
agencies because what you do is not as transparent to everyone, 
especially American citizens. You really are, in a way, the 
business center----
    Ms. Roth. Right.
    Senator McCaskill [continuing]. For government, 
particularly when it comes to real estate but also for other 
things.
    And so I have a tendency to like focusing on areas that 
maybe do not get enough focus, which is one of the reasons that 
I am sure I am on some list over there, that I am always on you 
guys about what you are doing.
    So let me start with the Federal Acquisition Database. I 
cannot tell you how many hearings I have sat in this room for 
on the Federal Acquisition Database.
    In 2009, the Federal Government had more than a dozen 
databases relevant to contracting, and contracting is something 
that I have spent an awful lot of time on. These databases were 
managed by five different agencies and supported by eight 
different contractors. I think anybody who is listening to 
those facts realizes we had a problem.
    In an effort to bring it all together, there is an attempt 
being made to integrate all of these databases and envision one 
system where everyone will have a portal to access the scoping, 
letting, and managing of contracts, particularly the awarding 
of contracts, the systems for award management.
    Now, unsurprisingly, like most IT projects everywhere and 
particularly in the Federal Government, this one has seen cost 
estimates double and deadlines fall by the wayside.
    I know there has been some progress, and I appreciate that 
this is a huge undertaking. I know that GSA has done a whole 
lot of stakeholder outreach and that you have technical experts 
in charge of the acquisition program.
    But we are 6 years into this effort. If this were private 
sector, this would be failure. Six years is a long time, and my 
understanding is we are still not there yet.
    So are there still legacy systems being operated by 
agencies other than GSA?
    Ms. Roth. There would be; yes is the short answer.
    Senator McCaskill. And at Dan Tangherlini's confirmation, I 
asked him about this. I am hoping I do not have to ask too many 
more. But I asked for the timeline for completion, and he was 
pretty noncommital.
    Do you have any sort of timeline for the retirement of 
legacy systems and full GSA oversight of the contractor 
information database?
    Ms. Roth. The system, as you know, as it is being built 
out, is in an iterative stage. And so we are building as we go 
and testing and ensuring that what we build onto it is actually 
being successful. Its completion date at this stage is--I 
believe it is 2018, but it will be dependent upon how 
successful each stage is.
    I think that there was likely a lot of time lost on the 
front end, sort of putting all of those efforts together and 
then turning on the switch, just to find out that it was not 
going to work well.
    Some of the efforts that have been put in place at the 
agency, both in terms of the changing of the management 
structure as well as taking a different development approach, I 
think are important parts to it actually being successful as we 
make those transitions. And it is something that we have 
learned more about, obviously, over the past year, and we have 
been able to see that success happen but also watching it 
closely. And I think that we have stronger oversight in terms 
of how well the project is actually producing.
    Senator McCaskill. What about a timeline?
    Ms. Roth. Well, as I said, the completion date at this 
point is 2018, but we continue to watch and monitor the 
development of the system itself.
    Senator McCaskill. What part of 2018?
    Ms. Roth. I cannot say as I sit here, Senator, but I will 
definitely followup.
    Senator McCaskill. I am going to withhold judgment on your 
confirmation until I get a date. Now that date may not end up 
being the date, but I just have the sense--I mean, this is 
2018.
    We have been at this for 6 years. You are telling me it is 
going to be another 2\1/2\ years. Eight and a half years? To 
integrate databases?
    Ms. Roth. The only thing that I can say is that----
    Senator McCaskill. And by the way, just so everybody 
understands, the cost has gone from 96 million to 181 million, 
that we know of right now.
    So is it more than 181? In the long run, is it going to be 
more than 181 if we are going to 2018?
    Ms. Roth. I will definitely assure you that this is a very 
important item, and I will certainly followup with your office 
and make sure that we are being very clear in terms of what we 
are expecting from timelines as well as the cost overall. We, 
obviously, have been very inefficient. It has not hit the 
success that we need it to hit. And we are addressing that.
    Senator McCaskill. Contractors are making a lot of money 
off this deal, and I just do not sense that there is urgency.
    And I have tried to be cajoling. I have tried to be 
inquisitive. I have tried to be knowledgeable. And none of that 
has worked. I think I have to just get downright mean to get a 
date and to get a price and to hold people to it.
    Ms. Roth. Sure.
    Senator McCaskill. This just would not happen in the 
private sector; it would not happen. And there really is not a 
good excuse for it to happen here, not when we double the 
price.
    And it is incredibly important that we integrate these data 
systems because it is everybody's excuse for bad contracting. 
Invariably, when we find a bad contract, they go, well, we just 
do not have transparency, and we have bad data, and blah, blah, 
blah.
    And if we have this system, it kind of rips away a lot of 
the excuses for bad contracting that costs our country billions 
every year. This is real money.
    So you are just kind of unlucky to be at the end of a long 
line of GSA Administrators who I feel like have never been as 
focused on this as they should be. I know it is about putting 
out fires every day.
    Let me also ask you about the Office of Personnel 
Management (OPM) Credit Monitoring Contract. Do you know if OPM 
made any effort to procure those services from a contractor on 
the GSA schedules before they went to a one-source contract 
following the breach at OPM? Do you have any knowledge about 
that?
    Ms. Roth. I am not sure, Senator. I know that there were 
some staff-level conversations, but ultimately, the process 
that OPM took in that respect I am not aware.
    Senator McCaskill. Well, if you would check for us, we 
would like to know that. We are trying to figure out how a 
company that had been identified as having very bad behavior in 
Afghanistan changes its name, is currently under investigation 
for over $135 million in overpayments at the Department of 
Defense (DOD), and still gets a sole-source contract to fix the 
breach at OPM.
    It is a little troubling to me. I know we needed something 
to happen quickly. But to hire a company that has that kind of 
track record on a sole-source basis?
    So I am trying to backtrack and see what effort did they 
make to do due diligence, and whether or not they tried to 
access standing contracts on this that are available on the GSA 
schedule. It would be very helpful for me as I try to make the 
Office of Personnel Management uncomfortable like I am making 
you uncomfortable today.
    Ms. Roth. Yes, Senator.
    Senator McCaskill. I know that the Chairman and the Ranking 
Member are going to focus on this in the hearing, but I think 
that we need to understand--I know we are going to have a 
hearing on this next week.
    We need to understand how the State Department is getting a 
green light on a security training facility that is going to 
cost $170 million extra because they want it close to D.C. That 
is a lot of money, $170 million, to be close to D.C.
    I know we want to get to the bottom of it next week, but 
whatever information you can get to this Committee prior to 
that hearing as to what role GSA has or does not have, in terms 
of your ability to say no, or to stop, or to go: Wait a minute. 
What kind of cost-benefit analysis are we doing on proximity to 
D.C. with that kind of price tag?
    I know that this Committee would appreciate it as we 
prepare for that hearing.
    Thank you, Mr. Chairman.
    Ms. Roth. Thank you, Senator.
    Senator Carper. And, thank you for your passion.
    When I was a Congressman, I used to hold a bunch of town 
hall meetings, and sometimes 20 or 30 people would come; 
sometimes 100 people would come. We did a lot of them.
    And at one of my most memorable town hall meetings was a 
lady who said--Claire, she said--we had a discussion on budgets 
and spending and so forth, and she said: I do not mind paying 
taxes. I just do not want you to waste my money.
    That is what she said: I do not mind paying taxes. I just 
do not want you to waste my money.
    And one of my takeaways--I remember that to this day, and I 
have had a passion for not wanting to waste money.
    Senator McCaskill is a former State auditor. She shares 
that passion. Dr. Coburn and Senator Lankford and others, we do 
not want to waste money, and we are passionate about it, and we 
try to use our passion to infuse our passion into people who 
sit at this desk----
    Ms. Roth. Yes.
    Senator Carper [continuing]. And to provide leadership 
across the Federal Government.
    And I would just say to you I mentioned the word 
``passion'' before. I would urge you to show and demonstrate 
and exhibit real passion for these issues. It is all well and 
good to be cool, calm, and collected, but we also need to be, 
from time to time, passionate.
    Senator McCaskill. Sometimes maybe we are too passionate.
    Senator Carper. Well, keep that in mind.
    Ms. Roth. Sure.
    Senator Carper. Let's talk about strategic sourcing.
    Ms. Roth. Yes.
    Senator Carper. And maybe you can talk to us about the 
subject I discussed a lot with Dan Tangherlini and something 
about which he had a lot of passion.
    But when GAO took a broad look at strategic sourcing in 
2013, it found that leading private sector companies managed 
about 90 percent of their spending through what we call 
strategic sourcing. But the four Federal agencies that GAO 
examined, I think they only managed maybe 5 percent, 
collectively, through strategic sourcing. Five percent.
    And let me just ask what progress have we made since then, 
and what next steps would you plan for further increasing 
strategic sourcing?
    And are there some instances where it just makes no sense? 
Maybe there are.
    But where are we making some progress? What are the next 
steps that you plan for increasing strategic sourcing? And if 
there are some areas it does not make any sense, give us some 
examples of what those might be?
    Ms. Roth. Well, in terms of strategic sourcing, we have 
really been working very strongly on this effort, with OMB 
certainly, and actually believe that it is a very important 
opportunity for the Federal Government overall to leverage its 
buying power. And so to the extent that with--internally, we 
have organized our acquisition activity around categories, 
known as Category Management, and an important structural 
approach to strategic sourcing as well.
    And something that we believe is very vital here is the 
increase of knowledge, both for us internally and then making 
that available to the Federal agencies that we work with. It 
can be very helpful for us.
    In terms of strategic sourcing, if there is any place that 
we are missing opportunity for efficiencies, it is an approach 
to buying power. And what we find is that every time that we 
improve on, as well as pursue, a strategic sourcing effort 
across Federal Government, we are seeing those cost savings.
    So this is an area that we actually are stepping out very 
strongly on. As I said, we have organized our teams around, 
meaning identifying management leads internally, ensuring that 
we are--that our teams that have the training and staff that 
have the training are aligned in the right way, and then also 
working across the board with other agencies as well.
    And something else that plays into this is the acquisition 
gateway that we are putting in place, which is also another 
tool that we believe is going to help agencies have a stronger 
understanding around the prices, both market data as well, as 
well as knowledge around the items that they look to pursue and 
purchase.
    But having strategic sourcing means that we are utilizing 
our borrowing power, leveraging from that, and really driving 
the market to ensure that we are getting the products and 
pricing that we need to get to the best value.
    Senator Carper. When you get push-back, or we will say a 
lack of passion, for pursuing strategic sourcing, what are some 
of the excuses that you get, and how do you deal with that?
    Ms. Roth. Well, I think oftentimes we will hear that the 
products are too different in order to afford to actually have 
the strategic sourcing, that they are too varied a population 
that is actually managing or selling, or vendors that are 
selling these products.
    But, ultimately, we have found support, as well, from the 
private sector in terms of pursuing this approach. It is an 
approach that makes sense in terms of any large entity.
    And the Federal Government itself is spending millions on 
similar types of products and items, year over year, and not 
getting the best value out of it.
    So we do have some voices that are detractors from that. 
But understanding what the needs are for the marketplace, as 
well as for agencies, and really speaking to that and making 
the items and products available is a key part.
    Senator Carper. OK. Thanks.
    Senator McCaskill is passionate about a number of things, 
including contracting, and we have talked with her. I promise 
you, when you come back before this Committee, you will hear 
about it again.
    Ms. Roth. Yes.
    Senator Carper. So just make sure that you really button 
down and continue to do good work there.
    And I would urge you to get back to her in writing and 
maybe personally.
    Ms. Roth. Yes.
    Senator Carper. Just to say: you raised this issue, and 
this is what we are going to do; this is my deadline.
    I find it is very helpful for myself and for my family, for 
the folks I work with, to set goals, deadlines, and then just 
try to make sure that we are accountable to that.
    So you probably do the same thing, and I would urge you to 
do it in the area that she has raised.
    I am going to just go back and talk a little bit about--and 
we have already dealt with this a little bit, but I just want 
to revisit it again if I could.
    In your opening statement, you gave a broad overview of the 
procurement initiative that is called--I think it is called 
Category Management that GSA is working on with OMB.
    Can you give us a concrete example of how this initiative 
would work with a particular good or service? What will be 
different with the way that an agency buys something through 
Category Management? And what results should the taxpayers see?
    Ms. Roth. Sure. In terms of Category Management, it is 
probably best in terms of the agencies themselves. It is 
understanding that it is not solely about pricing although 
lower prices is what we expect out of the process overall. But 
in terms of the knowledge of the decisions that individuals are 
making as they make purchasing decisions is, I think, the key 
opportunity here.
    We have within our organization, as I referred to earlier, 
organized our activities around the main 10 categories, and one 
of our earlier examples is office supplies as well as 
professional services.
    With professional services, we have identified a senior 
management lead who has a strong knowledge both about 
contracting as well as the activities in professional services. 
That means that she is in a position of both understanding 
where the market is currently, as well as where it is going, 
and ensuring that her team is doing that research.
    The more work that we can do on the front end for that 
category means that the contracting professionals from other 
agencies can rely on that information and use those various 
sources. So they will have items such as prior contractual 
agreements. They will see the tools around the Federal 
Government that are available. They will have access to 
information regarding purchasing activity as well as prices 
paid on certain items, as well.
    So, from a tool perspective, it is a very strong 
opportunity for the other Federal agencies that are looking to 
purchase anything from--what did you say earlier? Toilet paper 
to----
    Senator Carper. Technology.
    Ms. Roth. Technology, that is right. It is a strong 
opportunity in that respect.
    And us organizing the team and the staff through that same 
vantage point means that we will have stronger data on the 
front end and be able to make quick purchase but also more 
informed purchases.
    And OMB is seeking to develop the policies that are 
stretching that across government, and we have the Acquisitions 
Council who is really leading that effort across government, as 
well.
    Senator Carper. All right. Thanks.
    Maybe the last question I am going to ask deals with 
Presidential transition.
    I remember once being at a summit in Central America, 
hosted by the President of Costa Rica, and who later won a 
Nobel Peace Prize. And he had invited the presidents of all the 
Central American countries to come, about 20 years ago, to try 
to figure out how they could live in peace. They had all kinds 
of guerilla wars and insurrections and attempts to overthrow 
other countries' governments. And Oscar Arias Sanchez was his 
name.
    And we had just a terrific 2 or 3-day summit.
    And Jim Wright, who was Speaker of the House, asked some of 
us from the House to go down and monitor, just to be their 
observers, Democrats and Republicans, and I was privileged to 
be one of them.
    I will never forget talking to one of the presidents who 
was there. I do not know if it was Guatemala or El Salvador or 
Honduras, one of those countries.
    And he said to me these words; at the end of the summit, he 
said, in America you have elections every 4 years. Somebody 
wins; somebody loses. And you just have a transition, and the 
next person becomes president. That is it.
    He said, we have never done that. We have never had a 
peaceful transition from one president to the other in the 
history of our country.
    Well, since then they have, but it was a long time to get 
there.
    What did Winston Churchill say about democracy? The worst 
form of government devised by wit of man, except for all the 
rest. Think about that.
    We have a couple of people, actually good friends of mine, 
who are highly admired public servants, who spend a fair amount 
of time not just thinking about Presidential transitions but 
working on them. And one of them is a fellow named Ted Kaufman.
    Ted used to be Chief of Staff to Joe Biden when Joe was our 
Senator from the State of Delaware. And when he went off to 
become Vice President, our Governor nominated and appointed to 
be interim Senator for 2 years, Vice President Biden's former 
Chief of Staff, Ted Kaufman, and he served as Senator for 2 
years, interim Senator before Chris Coons was elected.
    But Ted Kaufman, one of the things he worked on those 2 
years he was here was Presidential transition, to make sure we 
do a better job so that we do not wait until like the day after 
the election and say, now what we do, but we actually start 
working months and months ahead of time to better ensure that 
there will be a smooth transition given all the challenges that 
we face in this country and this world.
    A fellow who used to be Governor and succeeded me as 
Chairman of the National Governors Association (NGA), one of my 
best friends from those days, Mike Leavitt, former Governor of 
Utah, former Secretary of Health and Human Services (HHS), but 
Mike was the head of the transition team for Mitt Romney 
leading up to the election of the last president and did a 
whole lot of work, led a whole lot of work on that team in case 
Governor Romney had won. Then they would have been better able 
to assume the new responsibilities.
    But Senator Johnson, our Chairman of our Committee, and I 
have sponsored a bill inspired by the works of former Senator 
Ted Kaufman and former Governor/former Secretary Mike Leavitt, 
and we actually named the legislation after them. It attempts 
to perfect and improve on the earlier work of Senator Kaufman. 
Several of the provisions clarify and strengthen the role that 
GSA has long played in helping to coordinate transition 
efforts.
    And this may not be something you spend a whole lot of time 
thinking about given everything you are learning and getting 
your head around in your role as acting head of GSA. But can 
you give us any thoughts about where GSA is today in standing 
up its transition team? What role do you expect that will play, 
that you will play as Administrator, in ensuring that the 
transition planning goes smoothly regardless of who the next 
president might be?
    Ms. Roth. Yes. I believe the transition opportunities that 
we have at GSA, in the legislation that was set out over 50 
years ago at this point, is a great opportunity for us.
    And we kicked off our efforts a few months ago in terms of 
bringing in a senior executive who previously has worked in 
several capacities in GSA and has a strong track record of 
execution and success. And, in fact, yesterday we had a town 
hall with our local office, at our main office, central office, 
as well as our National Capital Region, with the staff, with 
the staffs in general.
    I think this is a tremendous role that we play and 
tremendous opportunity to ensure that as the Federal Government 
changes hands that that is done in a way that is streamlined 
for the American public. And so there are some very critical 
efforts there, but I think the themes of early planning, 
organized planning, and learning from the past is very key.
    And we have been fortunate that we do have some senior 
executives who have gone through this process, who continue to 
share their knowledge with the organization, as well as bring 
in new employees that have not had the experience but teaching 
them as well.
    I think that anything we can do to start those processes as 
early as possible, be clear about what the path forward is, and 
really have a strong project plan is key. And so we have 
started that effort, and it is going well. And we have some 
more social interactive tools that are allowing for us to 
engage and inform the agency, as well, for setting 
expectations.
    Senator Carper. All right. Good. I have one last question, 
maybe two, but the first will be I am just going to ask you to 
think out loud for us about what you might have learned, what 
takeaways you may take out of the room because of the 
interaction you had with our colleagues here today, what are 
maybe some things that have been reinforced in your mind, if 
you are confirmed and have the chance to serve as our Senate-
confirmed Administrator at GSA.
    The other would be just to say I am going to give you a 
chance, as I did all witnesses when I was Chairman--and Senator 
Johnson now does this as the current Chairman--and that is just 
to give you a couple minutes to say any concluding words or 
thoughts that you would like to put on the record before we 
wrap this up and head for the rest of our day.
    But, first of all, what have you gained from this today and 
then maybe just any other thoughts you have that you would like 
to close with?
    Ms. Roth. Thank you, Senator.
    I think it is clear from today that we continue to have a 
very strong partnership with the Committee and that we have 
very thoughtful, as well as passionate, members that we can 
work with and rely on but that are very interested in our 
policies and our activities, which is very important for us in 
terms of, yes, we will do the executing, but we do need 
partnerships around policy.
    I have heard all of the messages from our conversation 
today and will ensure that these remain at the top of my list 
of activities.
    And, especially, I think the point was really brought home 
with the conversation with Senator McCaskill around the fact 
that we have had inefficiencies in terms of how government is 
managed overall, and we need to deal with those. We need to 
have solutions that are clear, that are thoughtful on the front 
end, so that they are not continuing to be wasteful and that we 
are aggressive in following through. And I think that is an 
important message that has come from today.
    And I look forward to the continued partnership with this 
Committee.
    In concluding, I would just want to reiterate my commitment 
to the mission that we have at GSA, and that is to provide the 
best value in real estate, in acquisition, and technology 
services for the Federal Government and the American people. I 
think that we have a very strong mission that really does help 
to move the efforts of Federal Government overall. And to the 
extent that we can be successful and clear in where our efforts 
are, it will help the Federal Government across the board.
    I am committed as a senior leader in Federal Government to 
the roles that we play with our Federal partners and customers, 
but as well as the communities in which we impact. And I want 
to be at the forefront of having really reshaped and defined 
that relationship with the Federal Government and local 
government that we have had in the past.
    So I want to thank also the Senators, Senator Carper as 
well as the Committee, as well. I have had a chance to meet 
with a number of the Members, and it has been very important 
for me to understand their perspective and what I need to focus 
on.
    And then, finally, I want to thank my staff, as well as 
family and friends, that have been very helpful through this 
process. Having made the transition to come back to Washington 
with my family and having the opportunity to serve this 
government, this president, the American people is a tremendous 
opportunity, and I will take that effort seriously every day.
    Senator Carper. Good. Thank you for those words.
    Ms. Roth. Thank you.
    Senator Carper. Last couple of thoughts. When Jeh Johnson 
was confirmed as the Secretary of Homeland Security, he made a 
point of visiting Capitol Hill and to meet with the committees, 
chairs, ranking members in the House and in the Senate, on the 
many committees and subcommittees that have oversight--way too 
many committees and subcommittees that have jurisdiction over 
the Department of Homeland Security. It was a smart move on his 
part.
    And some folks knew him from before, given his work as 
legal counsel at DOD, but a lot of people did not know him 
well. And it just gave a chance to get to know him better and 
develop that sense of trust.
    I talked earlier that it is so important to have a sharing 
of priorities. It can only help.
    I would urge you to call Jeh Johnson if you are confirmed. 
I would call him the first week after you are confirmed and 
just say, a guy from Delaware told me that you did a very nice 
job just reaching out.
    He would literally be maybe in one of the House office 
buildings, walking down the hall, going to meet with somebody, 
and he went by an office of someone who he knew was on one of 
his committees or subcommittees, on which DHS was part of their 
jurisdiction. He would just go in unannounced, to say, I was 
just passing by and just wanted to say hi.
    And if the member was there, they would, say, chat for a 
few minutes. If not, at least they would know that he cared 
enough to stop. It means a lot.
    Ms. Roth. Thank you.
    Senator Carper. And another person pretty good at that is 
this guy named Tangherlini. You know him pretty well, and you 
may want to pick his brain on that, too.
    In the end, this place runs not entirely, but a lot, on 
relationships and trust. And there is work that we can do to 
help engender that and build that, and there is work that you 
can do, too, and I hope you will do that.
    Our staff has given me--first of all, I want to thank our 
staffs, both on the Majority side and on the Minority side, for 
their work in working with you and preparing for this hearing.
    Ms. Roth. I would like to thank them as well. It has been 
an important guidepost, and I appreciate everyone's help.
    Senator Carper. Oh, good. See, you can never say ``thank 
you'' too much.
    Ms. Roth. Yes, sir.
    Senator Carper. You know that.
    I think our nominee has filed responses to biographical and 
financial questionnaires answered pre-hearing questionnaires 
submitted by the Committee, had her financial statements 
reviewed by the Office of Government Ethics. And, without 
objection, this information will be made part of the hearing 
record,\1\ with the exception of financial data which are on 
file and available for public inspection in the Committee 
offices.
---------------------------------------------------------------------------
    \1\ The information of Ms. Roth appears in the Appendix on page 37.
---------------------------------------------------------------------------
    And the hearing record will remain open until noon 
tomorrow--that is July 24, 12 p.m.--for the submission of 
statements and questions for the record.
    You will have an opportunity to respond to the questions, 
and I would just urge you to do that promptly and fully, either 
in writing or in some cases I would do it in person. That can 
only help expedite this consideration.
    I turn to my colleagues to my left and my right and see if 
they have any further statements. I hear none.
    And, with that, we are going to adjourn for today and wish 
you good luck and Godspeed. Thank you.
    Ms. Roth. Thank you, Senator.
    Senator Carper. This hearing is adjourned.
    [Whereupon, at 11:31 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                                 [all]
</pre></body></html>
